AUDIT OF THE BUREAU OF ALCOHOL,

     TOBACCO, FIREARMS AND 

 EXPLOSIVES’ NATIONAL RESPONSE 

              TEAM

        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 11-09 

              January 2011

                AUDIT OF THE BUREAU OF 

     ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES’ 

               NATIONAL RESPONSE TEAM 


                         EXECUTIVE SUMMARY


      In 1978, the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF) established its National Response Team (NRT) to assist other federal,
state, and local law enforcement agencies in determining the cause and
origin of major arson and explosives incidents. Since its inception, the NRT
has provided assistance in over 700 investigations, including the 1993 World
Trade Center bombing, the 1995 Oklahoma City federal building bombing,
and the September 11, 2001, terrorist attacks.

      As of September 2010, the NRT consisted of 3 team leaders,
16 full-time members, and 112 part-time members from throughout ATF.
An activated team normally consists of approximately 15 agents and
attempts to arrive at a fire or explosion scene within 24 hours after receiving
the initial request for assistance and stays at the site for 3 to 7 days. While
on-scene, the NRT assists other federal, state, and local agencies in sifting
through debris to obtain evidence related to the explosion or fire, identifying
the seat of the blast or the origin of the fire, and conducting interviews. The
NRT responded to 63 incidents between fiscal years (FY) 2007 and 2009.

OIG Audit Approach

      The objectives of this audit were to: (1) examine ATF’s use of the
NRT, including its effectiveness; and (2) examine the management of the
NRT Program.

      To accomplish these objectives, we reviewed ATF documentation
associated with the NRT, including information on the incidents for which the
NRT was deployed between FYs 2007 and 2009. We interviewed over
50 ATF officials, including the ATF Acting Director, the Executive Assistant
Director, the Chief of the Arson and Explosives Enforcement Branch, and key
NRT personnel.

      In addition, we performed audit work analyzing the use of the NRT at
five ATF field divisions: (1) Chicago, Illinois; (2) Dallas, Texas; (3) Houston,
Texas; (4) Louisville, Kentucky; and (5) Philadelphia, Pennsylvania; as well
as at the Jacksonville, Florida, Field Office of the Tampa, Florida, Field
Division. Further, we observed the NRT at an activation related to a series
of church fires in eastern Texas.
       To obtain feedback on the effectiveness of the investigative support
provided by the NRT, we surveyed representatives from 49 state and local
law enforcement and fire department agencies who worked with the NRT
during our review period. Moreover, we conducted telephone interviews
with senior management in ATF’s 25 field divisions for their insight on the
utilization of the NRT, the use of NRT equipment, and recent changes to the
NRT Program. Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

Results in Brief

       We found that the NRT Program brings valuable expertise and
experience to large-scale arson and explosives investigations. Many of the
ATF officials we interviewed commented on the NRT’s expertise and
professionalism, and many state and local agency representatives who
worked with the NRT stated that their agencies could not have completed
their investigations without the assistance of the NRT, or that they could not
have completed the investigations as thoroughly or as efficiently.

       On the other hand, our audit identified weaknesses relating to the
utilization, effectiveness, and management of the NRT Program. Our review
of ATF data revealed that some ATF field divisions did not request NRT
assistance often. We found that ATF field divisions requested NRT
assistance on 63 of the 631 cases that met the criteria for the NRT’s
assistance. Nine field divisions did not use the NRT at all between FYs 2007
and 2009, and three field divisions only used the team one time during those
3 years.

       We also found that ATF does not review the NRT’s utilization statistics
and therefore is unaware of how often, or how infrequently, certain field
divisions use the NRT as an investigative resource. Further, while ATF sends
satisfaction surveys to the state and local agencies that work with the NRT,
the response rate on these surveys is limited, and ATF performs no follow-up
on the surveys.

       In addition, we identified other areas in need of improvement within
the management of the NRT Program. For example, we determined that
ATF’s policies and regulations relating to the NRT Program, such as the
requirement to perform routine inspections of NRT response vehicles and
hazardous materials (hazmat) equipment, were not being followed. The
failure to perform these types of inspections could hinder the effectiveness
of the NRT’s operations or endanger the safety of NRT members because
inoperable or missing equipment may not be identified and addressed before
the NRT activation. Further, NRT management was not monitoring the use

                                        - ii-
of the vehicles and equipment and therefore did not have basic information
to make informed decisions about adding or replacing existing equipment.

      We also found problems in the supervision and oversight of the NRT
Program, including frequent turnover in NRT management positions,
inadequate interaction between NRT Program management and team
members, and ATF’s inability to provide basic program information such as
accurate data on NRT activations. We also found that these problems
resulted in low morale among NRT members.

       In our report, we make 10 recommendations to improve the
effectiveness of the NRT Program. Our full report contains more detailed
information on the results of our review, and the remaining sections of this
Executive Summary provide a further description of our audit findings.

Background

      During our review period, between FYs 2007 and 2009, the NRT was
located within the ATF’s Office of Enforcement Programs and Services, under
the direct supervision of the Arson and Explosives Programs Division, Arson
and Explosives Enforcement Branch. At that time the NRT was divided into
four regions: (1) Midwest, (2) Northeast, (3) Southeast, and (4) West.
Each region was headed by an NRT team leader who generally was
responsible for NRT activations in the leader’s respective jurisdiction. The
4-region structure was in place until October 1, 2009, when the Northeast
region was removed – resulting in 3 regions: (1) Central, (2) Eastern, and
(3) Western.

Utilization and Effectiveness of the NRT

       State and local law enforcement agencies can contact the local ATF
field division to request assistance when the investigation of an arson or
explosives incident extends beyond locally available resources. The local
ATF field division then determines whether to involve the NRT, after
considering its own capabilities to handle the incident.

       Although ATF does not require field divisions to use the NRT for
particular incidents, ATF provides guidance on the types of incidents that
warrant the use of the NRT. Specifically, according to the NRT Handbook,
the field division Special Agent in Charge determines the priority status of a
particular incident based on the following criteria:




                                        - iii-
       	     Priority 1: The incident involves commercial or industrial
              property with estimated damages of $1 million or more, or at
              least 1 death, or more than 10 injuries.

       	     Priority 2: The incident involves commercial or industrial
              property with estimated damages up to $1 million and at least
              1 to 10 injuries.

       	     Priority 3: The incident involves any property with estimated
              damages of less than $1 million and no deaths or injuries.
              Unless the Special Agent in Charge presents compelling reasons
              to the contrary (such as the incident is beyond the capabilities of
              the local office, is a hazmat scene, or has a significant impact on
              the community), the NRT will not be activated.

       To determine the extent of NRT utilization, we obtained ATF data for
all arson and explosives cases between FYs 2007 and 2009 from ATF’s
N-FORCE system.1 Using this data, we determined the number of cases that
met the criteria for using the NRT and the number of cases in which the NRT
actually assisted on an investigation, called Priority 1 cases.2 During our
review period we found that at least 631 ATF investigations met the
Priority 1 status criteria to activate the NRT, and the NRT participated in
63 investigations.

       The number of NRT activations varied by field division. We found that
nine ATF field divisions never used the NRT. In the nine field divisions that
did not request NRT assistance between FYs 2007 and 2009, each had
Priority 1 cases for which they could have activated the NRT, as illustrated in
the following exhibit. ATF officials explained that field managers consider
several variables when evaluating each fire or explosives incident to
determine if the NRT’s services are needed. As a result, ATF management
stated that the NRT would not be used on all Priority 1 cases.




       1
           N-FORCE tracks ATF investigations, contains various case-related data, and
collects information on the investigative tools, such as the NRT, that were used during the
course of an investigation.
       2
          For the purpose of our analysis, we considered the arson and explosives cases
meeting the Priority 1 criteria as those for which the field division could have requested the
NRT’s assistance. We limited our analysis to Priority 1 incidents because we believe
investigations falling under this category involve significant incidents on which field divisions
are more likely to request the NRT’s assistance.

                                                 - iv-
                NRT ACTIVATIONS AND PRIORITY 1 CASES

                        BY ATF FIELD DIVISION

                   FISCAL YEARS 2007 THROUGH 2009





     Source: OIG analysis of ATF N-FORCE data


      We also determined that ATF does not routinely perform similar
analyses to compare the actual use of the NRT to the number of potential
uses in each field division. We believe this type of analysis could be used by
ATF management for assessing the use of the NRT among field divisions.
For example, this type of review could identify field divisions that may not be
using the NRT to its full potential and for other offices this type of review
may identify best practices that could be shared within ATF. Therefore, we
recommend that ATF regularly conduct analyses similar to those we
performed.

       We interviewed ATF officials to better understand the varied use of the
NRT by field divisions and were provided various explanations to help
account for the uneven use. For example, ATF officials said that some state
and local agencies, particularly those in large cities, have the resources and
expertise to conduct arson and explosives investigations without the
investigative support of the NRT. Another factor affecting the use of the NRT
is the creation and use of Division Response Teams in certain field divisions.
These teams consist of agents within the field division who can respond


                                          - v-
when large arson and explosives incidents occur within the division’s
geographical jurisdiction.

       However, we also interviewed officials from 49 state and local agencies
who worked with ATF’s NRT, and 10 respondents said that they had little to
no knowledge of the NRT prior to the fire or explosion we discussed with
them.3 In addition, two local officials who had experience with the NRT told
us that they believed that responding authorities in rural areas may be
relatively unaware of the existence of the NRT and its capabilities for
assistance in major arson and explosives investigations.

       We found from our interviews that the investigative support provided by
the NRT generally was considered to be very effective. We interviewed
officials at ATF headquarters, as well as senior management from the 25 ATF
field divisions, and full-time and part-time NRT members. We also surveyed
49 state and local agencies regarding the effectiveness of the NRT. Generally,
these individuals praised the assistance provided by the NRT and spoke of the
team’s thoroughness and expertise. Specifically, representatives from 46 of
the state and local agencies interviewed said that they either could not have
completed their investigations without the NRT or they could have completed
the investigations but that without the NRT’s assistance it would have taken
more time and strained the agencies’ resources.

      Yet, we found that the Arson and Explosives Programs Division has not
established performance measures by which to assess the effectiveness of
the NRT. ATF does solicit feedback through a survey to the state and local
law enforcement agencies that requested the NRT’s assistance. However, of
the 63 NRT activations occurring during our review period, only 15 surveys
were completed and returned to ATF by state and local agencies, and ATF
did not follow up with the agencies that did not respond. NRT members also
told us that the feedback that is obtained is not forwarded to the team. The
team members believed that receiving such information would aid them in
providing the best possible assistance while on-scene.

       We believe ATF should pursue a higher return rate for the satisfaction
surveys to help gauge the NRT’s effectiveness and improve the support it is
providing. Additionally, the Arson and Explosives Programs Division should
share the results of the surveys with NRT members to give the team
information on how to improve the on-site assistance provided to state and
local agencies. We also believe ATF should establish metrics by which to


       3
           Some of these state and local representatives explained that although they had
little or no prior knowledge of the NRT, they contacted ATF about the fire or explosion when
it occurred and ATF officials informed them of the NRT’s existence.

                                               - vi-
assess the effectiveness of the NRT and to help identify the strengths and
weaknesses of the NRT.

Management of the NRT

      To examine the management of the NRT, we interviewed NRT
members and headquarters officials, including NRT Program management,
and we also observed an NRT team on the scene of an activation. As
discussed below, our review revealed several weaknesses in the
management of the NRT Program.

Adherence to Program Guidance

      The NRT Handbook formally establishes the NRT Program’s standards
and procedures. Our review revealed instances in which NRT Program
management did not ensure that members were adhering to these
established guidelines. For example, the NRT Handbook states that the
Arson and Explosives Enforcement Branch Chief, with assistance from NRT
team leaders, will conduct annual internal reviews of each NRT region. The
Arson and Explosives Enforcement Branch Chief informed us that he never
performed any of these internal reviews. The three current NRT team
leaders told us that they were unaware if the reviews were performed and
had never assisted in a review of another team.

      In addition, the NRT Handbook states that NRT team leaders must
ensure that all NRT response vehicles and equipment are inspected annually
and that vehicle maintenance and equipment inventory records are
maintained. The NRT must also abide by hazmat-related regulations set
forth by the Occupational Safety and Health Administration (OSHA) for the
inspection of hazmat equipment. These regulations require the
documentation of monthly inspections of hazmat-related respiratory aids.

       Between 1997 and 2004, the Arson and Explosives Programs Division
spent nearly $7 million to purchase 40 NRT response vehicles. Between 2005
and 2006, the Arson and Explosives Programs Division purchased eight hazmat
trailers containing equipment, such as self-contained breathing apparatuses
and protective suits, for nearly $515,000. Yet, according to NRT members,
required inspections of the response vehicles, hazmat trailers, and equipment
were not being performed. The failure to perform routine inspections can
impede the effectiveness of the NRT because the NRT may arrive on the scene
with inoperable equipment. Moreover, improperly maintained hazmat
equipment could jeopardize the safety of individuals using that equipment.



                                       - vii-
      At the time of our fieldwork, ATF also did not require staff to maintain
usage logs for NRT response vehicles and hazmat trailers. Some ATF offices
did maintain such records on their own, and we reviewed the available
vehicle usage logs. During our review period, there were three NRT
activations involving a hazmat scene, and a hazmat trailer was used in only
one of those instances. The NRT response vehicles were primarily used for
community events, such as parades, response vehicle demonstrations, and
career fairs.

       According to NRT Program officials, the NRT Handbook is outdated and
ATF is in the process of updating it. Recently, NRT management created an
inspection checklist for hazmat equipment and implemented a requirement for
monthly inspections of hazmat equipment. In addition, in June 2010 the Arson
and Explosives Enforcement Branch issued a policy directive requiring all field
divisions to maintain a vehicle usage log for the NRT response vehicles.

Program Oversight and Changes

      In April 2010 ATF initiated an organizational restructuring, and the
NRT Program was transferred from the Office of Enforcement Programs and
Services to the Office of Field Operations. Prior to April 2010, ATF officials
informed us of weaknesses in communication between the NRT Program and
the Office of Field Operations. We found that before the ATF’s organizational
change, on-scene communication from the NRT about its operations,
procedures, and methodology generally was shared within the Office of
Enforcement Programs and Services but was not always passed on to the
Office of Field Operations. ATF headquarters officials told us that they
believe that the recent restructuring will resolve the communication issues
that we identified.

      ATF made other programmatic changes to the NRT Program during our
review period. For example, in FY 2009 ATF headquarters restructured the
NRT from four regions to three to align with the Office of Field Operations’
regional structure. This restructuring resulted in the elimination of one NRT
team leader position. In addition, several part-time members left the NRT
as a result of the restructuring.

Management Turnover

       Our audit also revealed frequent turnover in NRT management
positions. Since 2001, seven individuals have served as Chief in the Arson
Explosives and Enforcement Branch, resulting in a lack of consistency and
continuity in program oversight.


                                       - viii-
Inability to Provide Basic Program Information

       We believe that basic information on NRT Program activity should be
maintained and readily available to those responsible for overseeing the
program. However, NRT management was unable to provide us with basic
historical information regarding the program, such as a listing of past NRT
members or information on the history of NRT activations.

      The Arson and Explosives Enforcement Branch established its own
manual mechanism to track NRT activations. However, the number of
activations identified through this manual process did not reconcile with the
number of activations reflected in N-FORCE. ATF executive management
expressed concern with this internal tracking mechanism and stated that the
NRT Program should rely on N-FORCE to report statistics.

Limited Management Involvement

      The Chief of the Arson and Explosives Enforcement Branch in
Washington, D.C. oversees the NRT Program and is the first-line supervisor
for the NRT team leaders and full-time members. However, the full-time
NRT members commented to us that they had little contact with NRT
managers in ATF headquarters and expressed concerns that management
conducted performance evaluations without interacting with them. In
addition, the NRT full-time members said that NRT management had rarely
been on-site during an NRT activation, which would provide an opportunity
to witness first-hand the work performed on-scene, interact with the NRT
members, and obtain face-to-face feedback regarding the program.

       NRT Program officials acknowledged that it has been difficult for
headquarters officials in Washington D.C. to manage the full-time members
who are stationed throughout the country. To resolve this issue, in
April 2010 ATF changed the position description of the NRT team leaders to
be supervisory in nature. As a result, the NRT team leaders stationed in the
field are responsible for directly supervising the full-time members. We
believe that this will help ensure that the full-time members have first-line
supervisors who have regular interaction with them.

Low NRT Member Morale

      During our interviews with NRT members, many discussed the
management issues described above and stated that these issues caused
low morale among the team members and negatively affected their
confidence in NRT management. These problems caused some members to
remove themselves from the NRT, while other NRT members told us that

                                       - ix-
they will consider leaving the NRT if the current conditions persist. We
discussed these issues with ATF executive managers who said they were
aware of the low morale and lack of confidence in management. They
explained that they believed the transfer of the Arson and Explosives
Programs Division, including the NRT Program, to the Office of Field
Operations would improve morale and overall program management.

Conclusion and Recommendations

      Overall, we found that the NRT assisted state and local agencies in the
investigation of large-scale fire and explosives incidents and that the
agencies receiving the assistance appreciated the support from the NRT
Program. Representatives from 46 of 49 state and local agencies we
interviewed said that either their agencies would not have been able to
complete the investigation without the NRT’s assistance or that the
investigation would not have been completed as effectively and efficiently.

       However, ATF is not ensuring the NRT is being used to its full
potential, and it does not routinely perform analysis on the use of the team
by field divisions. We also believe ATF needs to improve its process for
assessing the effectiveness of the NRT. Although ATF sends surveys to state
and local agencies that have worked with the NRT, only a small number of
the surveys are returned. Further, there is no mechanism to collect
NRT-related feedback from the field divisions, nor does ATF have internal
metrics by which to measure the NRT’s effectiveness.

       Our evaluation of ATF’s management of the NRT Program revealed
weaknesses. Although regulations associated with NRT equipment require
regular inspections of response vehicles and hazmat trailers, ATF was not
performing these inspections. In addition, at the time of fieldwork, ATF did
not require staff to maintain usage logs for the NRT response vehicles and
hazmat trailers. We believe ATF should regularly inspect the response
vehicles and trailers and monitor their use. We also believe that ATF should
complete its efforts to update the NRT Handbook that ATF officials have
identified as outdated.

      We identified other issues associated with the oversight of the NRT
Program, including communication weaknesses, turnover in NRT
management positions, the inability to provide basic program information,
and low morale among the NRT team members. ATF executive management
stated they believed that recent organizational changes will help address
these concerns.



                                       - x-
      In our report, we make 10 recommendations to improve the
management of the NRT Program, including regular evaluations of the usage
of the NRT, increase awareness of the NRT through enhanced outreach to
state and local agencies, update the NRT Handbook, and comply with
requirements for equipment inspections.




                                     - xi-
                  AUDIT OF THE BUREAU OF 

       ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES’ 

                 NATIONAL RESPONSE TEAM 


                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1
 
     Organizational Structure ................................................................ 1
 
     NRT Overview .............................................................................. 2
 
     Audit Approach............................................................................. 4
 
FINDINGS AND RECOMMENDATIONS................................................ 5
 
 I.  UTILIZATION AND EFFECTIVENESS OF THE NRT ........................ 5
 
     Utilization of the NRT .................................................................... 6
 
     Effectiveness of the NRT .............................................................. 12
 
     Conclusion ................................................................................. 14
 
     Recommendations ...................................................................... 15
 
 II. MANAGEMENT OF THE NRT...................................................... 16
 
     Non-Compliance with Policies and Regulations ................................ 16
 
     Equipment ................................................................................. 19
 
     Program Oversight ...................................................................... 22
 
     Low NRT Member Morale ............................................................. 27
 
     Conclusion ................................................................................. 27
 
     Recommendations ...................................................................... 28
 
STATEMENT ON INTERNAL CONTROLS............................................ 29
 
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 30
 
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 31
 
APPENDIX II - CURRENT MAP OF ATF FIELD DIVISIONS ................ 33
 
APPENDIX III - LOCATIONS OF NRT RESPONSE VEHICLES............. 34
 
APPENDIX IV - LOCATIONS OF NRT HAZMAT TRAILERS ................. 35
 
APPENDIX V - THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

    AND EXPLOSIVES’ RESPONSE................................................. 36
 
APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL
 
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

    RESOLVE THE REPORT............................................................ 41

                                  INTRODUCTION

       In February 1978 the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) created the National Response Team (NRT) to assist other
federal, state, and local authorities in determining the cause and origin of
large-scale arson and explosives incidents that are beyond the capabilities of
the initially responding authorities. Specifically, the NRT assists these other
agencies in sifting through debris to obtain evidence related to the explosion
or fire, identifying the seat of the blast or the origin of the fire, and
conducting interviews. As of August 2010, the NRT had assisted on
704 investigations, including the World Trade Center bombing in 1993, the
Oklahoma City federal building bombing in 1995, and the
September 11, 2001, terrorist attacks.

Organizational Structure

       ATF headquarters, located in Washington, D.C., provides oversight and
direction to the 25 ATF field divisions located throughout the United States.4
ATF headquarters is divided into eight offices that report to the Deputy
Director, as reflected in Exhibit I-1.

       The NRT Program is part of ATF’s Arson and Explosives Programs
Division, which in April 2010 was transferred from the Office of Enforcement
Programs and Services to the Office of Field Operations. The Office of
Enforcement Programs and Services develops and provides program
support, policy, and guidance to ATF offices. The Office of Field Operations
is responsible for enforcing federal laws and regulations relating to the
firearms and explosives industries and is the headquarters office to which all
field divisions report. The NRT’s organizational transfer is discussed in more
detail in Finding II of our report.




       4
         A map showing the geographical boundaries of the 25 ATF field divisions is
contained in Appendix II.
                                EXH
                                  HIBIT I-1

                     CURREN
                          NT ATF OR
                                  RGANIZATTIONAL CH
                                                  HART





Source: ATF


NRT Ov
     verview

      ATF createed the NRT T to establish a highhly-experienced cad   dre of special
agents and support person  nnel who can assistt federal, state, and   d local law
                                                                                w
enforce
      ement and d fire service personnnel at the e scene off a major fire or
explosion that ex
                xceeds the e capabilitties of the
                                                e initial res
                                                            sponding agencies.
Accordiing to ATF
                F, the NRTT can be deployed to a fire orr explosion   n scene
within 24 hours of its assis
                           stance being reques   sted and stay on th he scene fo  or
             5
3 to 7 days. Th he NRT ope erates und der a handbook (da    ated Februuary 8, 20000)
       scusses th
that dis        he program m’s structure and fo ormally es  stablishes the
programm’s standaards and procedure  es, such as s the requ uirements for filling
NRT poositions an
                nd the respponsibilitie
                                      es of NRT members     s.

Regiona
      al Structu
               ure

       When established in 1978, the   e NRT was s divided into two regions – the
East annd the West. In 198   80 two addditional re
                                                 egions weere added to the NRRT,
resultin
       ng in a tottal of four regions: (1) Midwe est, (2) Northeast,
(3) Souutheast, and (4) We   est.

     The NRT maintained  d this four--region sttructure unntil October 1, 2009
                                                                             9,
when itt eliminate
                 ed the Northeast re
                                   egion to be etter align
                                                         n with the regional


       5
         In our repo
                   ort, we refer to the NRTT’s deploym
                                                     ment to a fire
                                                                  e or explosio
                                                                              on scene as
                                                                                        s an
        vation, whic
NRT activ          ch ATF comm monly referrs to as an NRT “call out.”


                                            -2-
structure of ATF’s field divisions. Exhibit I-2 shows the current Central,
Eastern, and Western regions of the NRT.

                          EXHIBIT I-2

   CURRENT REGIONAL STRUCTURE OF THE NATIONAL RESPONSE TEAM





Source: ATF


NRT Personnel

      As of September 2010, the NRT was comprised of 131 ATF employees,
including 3 regional team leaders, 16 full-time team members, and
112 part-time team members.

      Each NRT region is headed by a team leader who has a variety of
responsibilities. Each team leader generally responds to all NRT activations
within the team leader’s respective region and to other regions as needed;
coordinates the scheduling of the NRT’s response to an incident, including
the formation of the team; and manages the team while on-scene. The
16 full-time team members, located in ATF field divisions throughout the
country, handle NRT-related activities and assist field divisions on other
arson and explosives investigations when these team members are not


                                     - 3 -

otherwise busy with NRT activities. The 112 part-time members, also
located in ATF field divisions throughout the country, volunteer for part-time
assignment to the NRT. Part-time members assist the NRT depending on
their availability; their primary responsibility is to investigate cases for their
field division.

      When an activated NRT team responds to an incident, the team
generally consists of approximately 15 special agents, including a team
leader and 2 full-time members, as well as a Team Special Agent in Charge
from the field division where the incident occurred. The team leader is
responsible for the overall operation of the team, and the Team Special
Agent in Charge is responsible for ensuring a coordinated investigative
approach between the field division and the NRT. Team members are
cross-trained in several disciplines, and each team may include agents who
are certified fire investigators, certified explosives specialists, and personnel
who serve as explosives enforcement officers, forensic chemists, canine
handlers, and medic support.6

Audit Approach

      The objectives of this audit were to: (1) examine ATF’s use of the
NRT, including its effectiveness; and (2) examine the management of the
NRT Program.

       To accomplish these objectives, we reviewed and examined ATF
documentation associated with the NRT and observed the NRT while
deployed.7 We also analyzed ATF arson and explosives case data for
FYs 2007 through 2009. We interviewed 73 ATF officials, including the
Acting Director of ATF, Executive Assistant Director, Chief of the Arson and
Explosives Enforcement Branch, field office managers, and members of the
NRT. We also obtained feedback from personnel representing 49 state and
local agencies who worked with the NRT during our review period.

      The results of our review are detailed in Findings I and II. Finding I
provides an overview of ATF’s utilization of the NRT between FYs 2007 and
2009, as well as our assessment of the NRT’s effectiveness. Finding II
focuses on the management of the NRT. Further information on the audit
objectives, scope, and methodology is contained in Appendix I.

       6
          Certified fire investigators are a group of highly trained special agents who provide
technical support, analysis, and assistance in identifying the fire origin and determining the
cause on potential arson investigations. Certified explosives specialists are special agents
trained in explosives investigations to identify, handle, and destroy explosives.
       7
           We observed the NRT’s response to a series of church fires in eastern Texas.


                                             - 4 -

                FINDINGS AND RECOMMENDATIONS
I. 	   UTILIZATION AND EFFECTIVENESS OF THE NRT

       ATF headquarters and field office leadership, as well as
       personnel from state and local agencies who have received
       NRT assistance, believe that the NRT Program brings
       valuable expertise and experience to arson and explosives
       investigations. However, ATF does not have an adequate
       means of assessing the utilization and effectiveness of the
       NRT Program and, as a result, may not be using the NRT to
       its full potential.

       Based upon our examination of ATF case data, we found
       that between FYs 2007 and 2009 ATF field divisions used
       the NRT on only 63 (or 10 percent) of at least 631 cases
       that met the criteria for use of the NRT. Further, 12 of the
       25 ATF field divisions either did not use the NRT or only
       used the NRT once during our review period. ATF does not
       review these statistics and receives only limited feedback
       from state and local agencies through the dissemination of a
       satisfaction survey.

       To request assistance when the investigation of an arson or explosives
incident extends beyond locally available resources, state and local law
enforcement agencies contact the local ATF field division. The local ATF field
division then determines whether to involve the NRT. In deciding to activate
the NRT, the local ATF field division considers whether it can sufficiently
respond to the request using its own capabilities.

      The use of the NRT among field divisions varies. Although ATF does
not mandate when its field divisions use the NRT, ATF has established
specific criteria that must be met prior to a field division requesting NRT
assistance. According to the NRT Handbook, the field division Special Agent
in Charge determines the priority status of a particular incident based on the
following criteria:

       	   Priority 1: The incident involves commercial or industrial
            property with estimated damages of $1 million or more, or at
            least 1 death, or more than 10 injuries.

       	   Priority 2: The incident involves commercial or industrial
            property with estimated damages up to $1 million and at least
            1 to 10 injuries.


                                     - 5 -

             Priority 3: The incident involves any property with estimated
              damages of less than $1 million and no deaths or injuries.
              Unless the Special Agent in Charge presents compelling reasons
              to the contrary (such as the incident is beyond the capabilities of
              the local office, involves hazardous materials, or has a significant
              impact on the community), the NRT will not be activated.

       According to ATF, the NRT primarily responds to Priority 1 incidents.
However, the NRT responds to Priority 2 and Priority 3 incidents when the
incident is beyond the capability of the state and local agencies and
significantly affects the community. The Chief of the Arson and Explosives
Enforcement Branch said that, to his knowledge, the NRT has responded to
all requests it receives for assistance.

Utilization of the NRT

       To determine the overall utilization of the NRT, we obtained data from
ATF’s automated case management system, N-FORCE.8 We examined data
on all arson and explosives cases handled by ATF from FY 2007 through
FY 2009 to determine: (1) the number of cases that met the criteria for
using the NRT and (2) the number of cases where the NRT was activated.
For the purpose of our analysis, we considered the arson and explosives
cases meeting the Priority 1 criteria as those for which the field division
could have requested the NRT’s assistance. We limited our analysis to this
priority area because investigations within this category involve significant
incidents for which field divisions are more likely to request the NRT’s
assistance. The following sections contain the results of our analysis.

Priority 1 Cases

       According to N-FORCE data for FYs 2007 through 2009, ATF had at
least 631 arson and explosives investigations that met the Priority 1
criteria.9 As shown in Exhibit 1-1, we determined that the number of
Priority 1 cases generally declined from FY 2007 to FY 2009 in three of the
four NRT regions that were active during the period. Only the Northeast

       8
           N-FORCE tracks ATF investigations, contains various case-related data, and
collects information on the investigative tools, such as the NRT, that were used during the
course of an investigation.
       9
          We could not determine the priority criteria for about 200 additional cases because
the necessary information was not contained in N-FORCE for those records. The fields that
capture that information are not required to be completed in N-FORCE. One of our
recommendations in this report is that ATF modify N-FORCE to require the fields capturing
this information are completed.


                                            - 6 -

region experienc
               ced a stead
                         dy increas
                                  se in the number off Priority 1 cases. The
      egion had the highe
West re                  est numbeer of cases
                                            s that mett the Priorrity 1 crite
                                                                            eria,
with 20
      04 cases.

                          EXHHIBIT 1-1
                                     1
      ATF PRIO
      A      ORITY 1 A
                     ARSON & EXPLOS SIVES INV
                                            VESTIGAT TIONS
                         BY NRRT REGIO
                                     ON
                FISCAL
                     L YEARS 22007 THR
                                     ROUGH 22009
                                                   To
                                                    otal
  Region     FY
             F 2007     FY 20008   FY 2009
                                             (FYs 200
                                                    07 – 2009
                                                            9)
  Midw
     west       76         61         62            199
  North
      heast     31         38         46            115
  Southheast    41         36         36            113
  Westt         76         71         57            204
      Totals
      T        224        206        201
                                     2              631
  Source
       e: OIG ana
                alysis of ATF
                            F N-FORCE data

       We furtherr analyzedd the Priorrity 1 case
                                                es by field division. As reflectted
in Exhibbit 1-2, th
                  he numberr of such cases varied widely  y among field
division
       ns – from a low of 3 Priority 1 cases in both the Baltimore   e and New wark
field div
        visions to a high of 48 cases in both thhe Boston and Chica  ago field
division
       ns.

                           EXHHIBIT 1-2
                                      2

       ATF PRIO
              ORITY 1 ARSON & EXPLOS SIVES INV
                                             VESTIGAT
                                                    TIONS

                        BY FIEL
                              LD DIVISSION

                FISCALL YEARS 2007 THRROUGH 2009





         Source: OIG analysis
                            s of ATF N-F
                                       FORCE data




                                       -7-
NRT Cases

      According to our analysis of N-FORCE data, as reflected in Exhibit 1-3,
ATF activated the NRT 63 times during FYs 2007 through 2009. We found
that 53 of the 63 NRT activations met the Priority 1 criteria.10 With the
exception of the Southeast region, the number of NRT activations by region
remained relatively constant throughout our review period.

       The use of the NRT varied widely among the four regions. For
example, the field divisions in the West region used the NRT more than the
divisions in the other regions. One NRT member explained that the NRT is
activated more in the West region because the West region is less-densely
populated and covers a large geographical territory with significant distances
between metropolitan areas. As a result, local authorities often require
assistance in responding to large-scale incidents. In contrast, field divisions
in the Northeast region rarely used the NRT. According to a former team
leader, the Northeast region contains a significant number of experienced
state and local arson investigators who are able to handle large-scale
incidents without NRT assistance.

                               EXHIBIT 1-3
                        NRT ACTIVATIONS BY REGION
                     FISCAL YEARS 2007 THROUGH 2009
                                                                    Total
   Region         FY 2007       FY 2008        FY 2009
                                                              (FYs 2007 – 2009)
   Midwest             5             3              4                12
   Northeast           1             2              1                 4
   Southeast           2             4              8                14
   West               13            10             10                33
       Totals         21            19             23                63
   Source: OIG analysis of ATF N-FORCE data

       We further examined the N-FORCE data to determine, by field division,
the number of cases involving the NRT’s assistance. As shown in
Exhibit 1-4, the utilization of the NRT by field division also varied greatly.
For instance, the Houston Field Division used the NRT on 11 of its arson and
explosives investigations opened between FYs 2007 and 2009. In contrast,
9 of the 25 field divisions (over one-third) did not use the NRT on any of
their arson and explosives investigations, and 3 field divisions only used the
NRT on 1 investigation.


      10
         We were unable to determine the priority status of the other 10 NRT activations
because of incomplete information contained in N-FORCE.


                                          - 8 -

                           EXHHIBIT 1-4
                                      4

           UTILI
               IZATION OF THE NRT BY ATF FIELD
                                             D DIVISION 

                 FISCAL
                      L YEARS 2007 THRROUGH 2009





        Source: OIG analysis
                           s of ATF N-F
                                      FORCE data

       We also co ompared the numbe     er of NRT activations to the number of
Priority
       y 1 cases by ATF field division  n, as detailed in Exhhibit 1-5. We found d
that all ATF field divisions used the NRT’s ass    sistance on fewer thhan
50 perc cent of the
                  eir Priority
                             y 1 cases. As previously men    ntioned, nine field
divisionns never used the NRT. However, each of these       e field divisions had
cases that met th  he criteria
                             a for requeesting thee assistancce of the NRT. For
examplle, the Chicago Field  d Division had 48 Priority 1 cases betw   ween
FYs 200 07 and 20 009 but ne ever utilize
                                        ed the NR RT. Similarly, the Bo oston Field
Divisionn had 48 Priority 1 cases and   d utilized the NRT only 3 time es. ATF
officials
        s explained that fielld manage  ement con  nsiders sev
                                                             veral variaables wheen
evaluatting each fire or exp plosives inncident to determine if the NRT’s services
are nee eded.




                                       - 9 -

                       EXHIBIT 1-5

NRT ACTIVATIONS AND PRIORITY 1 CASES BY ATF FIELD DIVISION 

             FISCAL YEARS 2007 THROUGH 2009





      Source: OIG analysis of ATF N-FORCE data

        ATF management stated that the NRT is not going to be used on all
Priority 1 cases, and the Chief of the Arson and Explosives Enforcement
Branch told us that the NRT has responded to all requests it receives for
assistance. However, we found that ATF does not routinely perform
analyses similar to those we performed. In particular, ATF does not identify
the number of times field divisions use the NRT compared to the number of
cases on which the NRT’s assistance could have been requested. We believe
this type of analysis could be used by ATF management as one of its tools
for assessing the use of the NRT among field divisions. For example, this
type of review could identify field divisions that may not be using the NRT to
its full potential and for other offices this type of review may identify best
practices that could be shared within ATF. Therefore, we recommend that
ATF regularly conduct analyses similar to those we performed.

       We interviewed various ATF officials, both at ATF headquarters and in
the field divisions, who provided explanations contributing to the varied
utilization of the NRT by ATF field divisions. These officials said that one
reason for the unequal use of the NRT is that some state and local agencies
have the capability to conduct such investigations without the assistance of
the NRT. In particular, ATF officials stated that major cities have the funding


                                      - 10 -
and resources available to train their own arson and explosives investigators
who, in turn, are able to handle large-scale incidents. As a result, according
to ATF, many state and local agencies are becoming self-sufficient in their
capabilities to investigate arson and explosives scenes without the
assistance of the NRT.

       Another contributing factor to the uneven use of the NRT is the
creation and use of Division Response Teams (DRT) within some ATF field
divisions. While these teams are not mandated by ATF, some field divisions
established formal DRTs to respond to large arson and explosives incidents.
Similar to the NRT, the DRTs are manned with certified fire investigators and
certified explosives specialists. As a result, some field division Special
Agents in Charge explained that they use their DRT when they believe the
investigation can be handled by local ATF personnel.11

      ATF headquarters officials also stated that some Special Agents in
Charge are reluctant to use the NRT because they fear it will make their
respective field division appear incapable of managing and investigating
arson and explosives incidents adequately. In surveying senior management
from every field division, we found that some officials preferred to use their
own agents because doing so provided these agents with an opportunity to
gain experience. Other field management officials stated that instead of
requesting the full cadre of the NRT, they request assistance from the NRT
team leaders or full-time NRT members located in their divisions and
manage the investigation locally.

       In addition to the feedback received from ATF officials, we interviewed
officials from 49 state and local agencies that worked with ATF’s NRT. Ten
said that they had little to no knowledge of the NRT prior to the incident we
discussed with them.12 Further, two local officials who had previous
experience with the NRT told us that they believed responding authorities in
rural areas may be relatively unaware of the existence of the NRT and its
capabilities for assistance in major arson and explosives investigations.
Without knowledge of the NRT, these agencies are unlikely to contact ATF to
request the NRT’s assistance if a major fire or explosion occurs.



       11
           ATF does not require field divisions to establish DRTs and does not have a
mechanism for tracking a field division’s use of its DRT. Therefore, we could not analyze
whether field divisions with DRTs have a lower usage rate of the NRT for Priority 1
investigations.
       12
            Some of these state and local representatives explained that although they had
little or no prior knowledge of the NRT, they contacted ATF about the fire or explosion when
it occurred and ATF officials informed them of the NRT’s existence.


                                           - 11 -
      We believe that the explanations provided by ATF officials may help
account for the uneven use of the NRT by field divisions. However, we
recommend that ATF increase its outreach efforts on the NRT’s capabilities
to help increase awareness among state and local agencies so that the NRT
can be called upon by those state and local agencies that currently may not
be aware of the assistance offered by the NRT.

Effectiveness of the NRT

       We interviewed ATF officials and NRT members to determine how ATF
measures the effectiveness of the NRT. Based on these interviews, we
believe that ATF does not have an adequate mechanism to routinely
evaluate the NRT using objective metrics. However, ATF distributes
satisfaction surveys to the state and local agencies that receive the NRT’s
assistance. Between FYs 2007 and 2009, the Arson and Explosives
Programs Division distributed 63 surveys but only received 15 completed
responses (or 24 percent). Despite the low response rate, the division did
not follow up with the non-responding agencies in an effort to increase its
response rate.

      On a quarterly basis, the Arson and Explosives Programs Division
compiles and analyzes the responses from the completed surveys it receives.
However, according to NRT members, the Arson and Explosives Programs
Division rarely shares the results with NRT members.

       To obtain further information about the satisfaction with the assistance
the NRT provides, we interviewed ATF headquarters officials, field division
management, NRT members, and representatives from state and local
agencies that requested the services of the NRT. During these interviews,
we inquired about the utility and value of the NRT, including the capabilities
of the team members and the usefulness of NRT equipment. We also asked
officials for any suggested areas of improvement for the NRT. The following
sections detail these individuals’ opinions of the NRT’s effectiveness.

ATF Headquarters Officials

        We interviewed 25 ATF headquarters officials during our audit and
asked them about the effectiveness of the NRT. The majority of the officials
responded favorably about the NRT and praised the work of the team. One
official stated that the team can handle unique arson investigations because
it is composed of highly-trained individuals with multiple years of
experience. Another official commented that NRT team members are very
motivated.




                                    - 12 -
Field Division Management

       We interviewed each ATF field division’s management regarding the
effectiveness of the NRT. Similar to the headquarters officials, field
managers recognized the significant work performed by the NRT and
commended the NRT’s expertise and professionalism. Numerous field
managers described exceptional cooperation between the NRT and its state
and local counterparts and referred to positive feedback received from state
and local agencies. One field manager said that “the NRT is the crown jewel
of ATF operations and they do a phenomenal job.” Another stated that “the
NRT is the best asset that any law enforcement agency has.”

       Some field managers provided suggestions for improving the NRT. For
example, one field manager suggested that the NRT provide training to field
divisions’ Assistant Special Agents in Charge so that they will have an
understanding of NRT activations.

NRT Members

      We also interviewed 24 NRT members regarding the effectiveness of
the NRT. They expressed the view that the NRT is a valuable program that
brings expertise and experience to arson and explosives investigations.
Several NRT members stated that the NRT is “the best program” in ATF.

      However, some NRT members stated that they would like to receive
feedback from the completed state and local agency satisfaction surveys and
believed this feedback would assist the NRT in ensuring that it provides the
most effective assistance possible. Additionally, the NRT members stated
that the program could benefit from certain improvements, including a more
proactive headquarters component overseeing the NRT Program and
updated equipment. These concerns related to the management of the NRT
are discussed in Finding II of this report.

State and Local Officials

      We spoke with representatives from 49 state and local law
enforcement agencies or fire departments who worked with the NRT
between FYs 2007 and 2009. We asked these individuals about the NRT’s
performance and their satisfaction with the NRT’s assistance. In general,
the state and local agency representatives offered praise and accolades for
the NRT. In particular, representatives from 46 of the 49 agencies stated
that their agencies could not have completed their investigations without the
assistance of the NRT, or that they could have completed the investigations
but not as thoroughly or as efficiently.


                                   - 13 -
       Besides the positive remarks, a few state and local agency
representatives suggested minor improvements for the NRT, including the
purchase of updated equipment and assembly of larger, more readily
available teams. Even with those recommended improvements, these state
and local agency representatives stated the NRT’s assistance was fully
effective.

       Despite the overall praise for the NRT’s efforts, we believe that ATF
should establish internal metrics by which to measure the effectiveness of
the NRT. For example, ATF should collect feedback regarding the
effectiveness of the NRT from the field division Special Agents in Charge.
Doing so would enable the Arson and Explosives Programs Division to
identify what aspects of the NRT provided the greatest benefit to the field
divisions and which areas need improvement. Additionally, ATF should
consider developing objective measurements to further assess the team’s
effectiveness, such as the timeliness of NRT deployments. ATF executive
management agreed with our belief that obtaining input from Special Agents
in Charge would be beneficial to improving the NRT Program.

      We also believe ATF should pursue a higher return rate for the state
and local agency satisfaction surveys. Moreover, feedback obtained from
the surveys should be shared with NRT members who could use that
information to learn how the NRT may be able to better assist state and local
agencies in arson and explosives investigations.

Conclusion

       ATF officials stated the NRT is a valuable program comprised of highly
skilled and experienced personnel. Representatives from state and local
agencies who we interviewed praised the work of the NRT and stated they
could not have completed their investigations without the NRT’s assistance
or that their investigations would not have been as effective or efficient.

       We found an uneven use of the NRT among ATF field divisions. During
FYs 2007 through 2009, ATF initiated at least 631 cases that met its
Priority 1 criteria for requesting the NRT’s assistance, and the NRT was used
a total of 63 times. Twelve of the 25 field divisions with Priority 1 cases
either did not use the NRT or only used the NRT once during our review
period. These divisions had 254 cases that met the Priority 1 criteria for
requesting the NRT’s assistance. Although ATF officials provided plausible
explanations for field divisions’ limited and dissimilar use of the NRT, we
found that ATF does not evaluate NRT usage or perform analyses similar to
those we performed for this audit.


                                    - 14 -
       In addition, we believe that ATF should improve its outreach to state
and local agencies about the NRT Program. We also believe that ATF could
improve its process for assessing the effectiveness of the NRT, including the
establishment of internal metrics. Although ATF sent satisfaction surveys to
those state and local agencies that worked with the NRT, it received a
limited number of responses, did not follow up with the non-responding
agencies, and rarely provided the survey results to the NRT members.
Additionally, ATF does not have a mechanism to gather input from the field
divisions on the effectiveness of the NRT.

Recommendations

We recommend that ATF:

      1.	   Analyze arson and explosives case data on a regular basis to
            examine field division use of the NRT to help ensure field
            divisions are using the NRT to its full potential. Follow up on
            instances of significant use or non-use to recognize any best
            practices that could be shared throughout ATF or identify field
            divisions that could benefit from management reinforcement of
            the availability of NRT assistance.

      2.	   Modify N-FORCE to require the population of the fields used to
            identify arson and explosives investigations according to NRT
            priority status.

      3.	   Enhance outreach efforts to state and local agencies to increase
            awareness of the NRT and its capabilities.

      4.	   Establish metrics by which to measure the effectiveness of the
            NRT.

      5.	   Place a greater emphasis on the state and local agency
            satisfaction surveys, establish a process for following up with
            non-respondents, and share with NRT members the feedback
            received through the surveys.




                                    - 15 -
II.    MANAGEMENT OF THE NRT

       ATF management was not monitoring the use of NRT equipment
       or ensuring that NRT policies and regulations were being
       followed, including regular inspections of NRT equipment. These
       weaknesses could hinder the NRT from operating efficiently or
       jeopardize the safety of NRT members and others. We found
       additional issues associated with the management of the NRT
       Program, such as frequent turnover in NRT management
       positions and a lack of communication. NRT members indicated
       that these issues had affected their morale and their confidence
       in NRT management.

Non-Compliance with Policies and Regulations

      The NRT Handbook contains the policies and procedures governing the
management and operation of the NRT Program. Additionally, the NRT
Program must comply with relevant Occupational Safety & Health
Administration (OSHA) requirements regarding hazardous material
(hazmat).

NRT Handbook

      The NRT Handbook states that NRT team leaders must ensure that all
NRT response vehicles and equipment are inspected annually and that
vehicle maintenance and equipment inventory records are maintained.13
However, NRT team leaders stated that a lack of funding and time
constraints prevented them from performing inspections of vehicles and
equipment. One team leader stated that he occasionally inspected vehicles
during an NRT activation, but he did not document those inspections.
However, it is clear that NRT response vehicles and equipment are not being
inspected annually, as required by the NRT Handbook.

      The lack of regular inspections can have significant consequences.
Routine inspections can identify inoperable equipment that can hinder the
operations of the NRT while on-scene. For example, each NRT response
vehicle contains a generator that is used to supply power to lights and other
equipment needed for examining the scene. If the NRT arrives on-scene
with an inoperable generator or other critical equipment, the NRT’s ability to
assist in an expeditious manner will be hampered. Additionally, the NRT

       13
          As discussed later in this finding, ATF has 40 NRT response vehicles. These
vehicles contain a variety of equipment and supply items to assist in the investigation of fire
and explosives incidents.


                                            - 16 -
may have to waste critical time following an incident on purchasing new
equipment if the equipment has to be replaced immediately.

      The NRT Handbook also states that the Arson and Explosives
Enforcement Branch will conduct annual internal reviews of each NRT region.
Although the guidelines require that these reviews be performed by the
Arson and Explosives Enforcement Branch Chief and assisted by an NRT
team leader from another region, the handbook does not describe what
these reviews entail. The Arson and Explosives Enforcement Branch Chief
informed us that he never performed one of these internal reviews.14
Moreover, the three current NRT team leaders told us that they were
unaware if the reviews were performed and had never assisted in a review of
another team.

       Internal reviews of team operations can reveal administrative
deficiencies, such as the failure to obtain necessary approval for equipment
purchases or to ensure that all activated team members have received the
required training that is necessary to participate in an activation. Internal
reviews can also provide an opportunity to identify best practices that can
improve overall program operations.

       According to the Arson and Explosives Enforcement Branch Chief, the
NRT Program does not comply with all handbook requirements because the
handbook is outdated. We believe that ATF needs to evaluate its existing
NRT guidelines, particularly those that are not being followed, and determine
if these policies and procedures are necessary or if new requirements should
be added. ATF officials said they are in the process of updating the NRT
Handbook. A revision was previously drafted in 2006, but this effort did not
result in the issuance of updated guidance. ATF officials said they anticipate
the new handbook will be completed in 2010.

OSHA Requirements

       The NRT must comply with regulations set forth by OSHA for the
inspection of hazmat equipment.15 For example, according to OSHA
regulations “[a]ll respirators maintained for use in emergency situations
shall be inspected at least monthly and in accordance with the
manufacturer's recommendations, and shall be checked for proper function
before and after each use.” The OSHA regulations require monthly

       14
            The current Chief has held the position since January 2008.
       15
          As mentioned later in this finding, ATF has eight hazmat trailers. These trailers
contain hazmat-related equipment such as self-contained breathing apparatuses.



                                            - 17 -
inspections of self-contained breathing apparatuses (SCBA) and that these
respirator inspections be documented and include the inspection date and
signature of the individual performing the inspection.

      The Chief of the Arson and Explosives Enforcement Branch told us that
he thought that SCBA inspections only needed to be performed annually and
reported annual inspections were performed. In addition, one of the three
NRT team leaders that we interviewed stated that the NRT has not inspected
the hazmat equipment on a monthly basis. However, another team leader
said that the OSHA regulations for inspecting SCBAs pertain to SCBAs that
are maintained for emergency use, when SCBAs are used for instances of
immediate response to potentially dangerous circumstances. This official
stated that because the NRT is not the first responder to a potentially
dangerous scene, the OSHA regulations to perform monthly inspections of
SCBAs do not apply to the NRT Program.

       Although the NRT may not be the first responder and typically
responds to a small number of hazmat-related scenes, we believe the
equipment should be regularly inspected to ensure it is operational when it is
needed and these inspections should be documented.16 For example, one of
the NRT team leaders informed us that upon arriving at a December 2009
hazmat scene, harnesses associated with the SCBAs had inoperable parts
and the suits did not have necessary communication devices. Having proper
radio communication equipment is important for individuals working in
hazmat scenes because team members may be working in situations where
they are not visible to other team members. Those overseeing the operation
need to be able to communicate with these out-of-sight NRT personnel
directly involved in these dangerous scenes to help monitor their safety. At
the December 2009 hazmat scene, the NRT had to rely upon the
communication equipment of the company under contract for the removal of
the hazardous materials. According to ATF officials, ATF has since purchased
the necessary radio communication equipment for use during hazmat-related
investigations.

      The Arson and Explosives Enforcement Branch Chief stated SCBA
inspections would be completed on a monthly basis beginning in April 2010.
ATF has created an inspection checklist to be used for all equipment
contained in the hazmat trailers. We believe that the Arson and Explosives


      16
          Based upon our examination of ATF case data, we determined that only 3 (or
5 percent) of the 63 NRT activations during FYs 2007 through 2009 involved a hazmat
scene. According to Arson and Explosives Enforcement Branch officials, the NRT used a
hazmat trailer on just one of those three activations.



                                         - 18 -
Programs Division needs to track the inspections and ensure that they
continue to be completed.

Equipment

      The NRT members have two primary types of equipment to aid their
investigation during an activation: (1) NRT response vehicles, and
(2) hazmat trailers. Exhibit 2-1 contains photographs of these equipment
items.

                                 EXHIBIT 2-1

                            ATF NRT EQUIPMENT

            NRT Response Vehicle               Hazmat Trailer




Source: ATF

NRT Response Vehicles

       Between 1997 and 2004, the Arson and Explosives Programs Division
spent nearly $7 million to purchase 40 NRT response vehicles.17 These
vehicles contain necessary equipment for conducting on-site investigations
of fire and explosives incidents, including items such as power tools,
evidence collection kits, and gloves. The vehicles were given to the field
divisions, which can use the vehicles for their regular operations, but the
vehicles must be available for any NRT activation.

      Although not required to do so until ATF issued a policy in June 2010,
some field divisions maintained vehicle usage logs documenting all uses of
the NRT response vehicles. We reviewed 13 vehicle usage logs to determine
for what purposes the vehicles had been used between FYs 2007 and
2009.18 Based on the descriptions of the events, we grouped the 123 log

       17
            Appendix III contains a map showing the locations of the NRT response vehicles.
       18
           We requested the vehicle usage logs for all 40 NRT response vehicles. The Arson
and Explosives Programs Division contacted each field division to obtain these logs, if
available. Based upon this inquiry, we found that vehicle usage logs were only maintained
for 13 of the 40 vehicles.


                                           - 19 -
entries into 5 categories: (1) NRT activations, (2) non-NRT field division
investigations, (3) training, (4) community events, and (5) special events.19
As shown in Exhibit 2-2, the NRT response vehicles were used primarily
(51 percent of the time) for community events, such as state fairs, parades,
response vehicle demonstrations, and law enforcement career days. Of the
123 total entries, the response vehicles were only used 29 times (or
24 percent) for investigative purposes (both NRT activations and non-NRT
investigations).

                               EXHIBIT 2-2

                    ATF NRT RESPONSE VEHICLE ACTIVITY 

                     FISCAL YEARS 2007 THROUGH 2009 





                   Source: OIG analysis of NRT response vehicle usage logs

       Arson and Explosives Enforcement Branch officials acknowledged that
the vehicles are often used for community events. These officials stated that
the field divisions use the vehicles on investigations whenever necessary and
that the vehicles are always available first and foremost for investigative
purposes. During our interviews with management from all 25 ATF field
divisions, we inquired about the usage rate of the vehicles. Five managers
said the vehicles were used very often, while 19 stated the vehicles were



       19
          ATF provides assistance at special events, such as the Super Bowl, presidential
inaugurations, and world economic summits.


                                          - 20 -
used occasionally.20 In general, these managers reported usage of the
vehicles for the same five purposes mentioned above.

       We believe that ATF should routinely monitor the use of these vehicles
to ensure that they are being used in the most efficient manner and for the
highest priority matters. During our audit, a few individuals stated that ATF
should purchase additional NRT response vehicles, while one headquarters
official believed the number of vehicles could be reduced. Without routine
monitoring and complete usage data, NRT management is not in a position to
make informed decisions about the number and placement of these vehicles.

       In June 2010 the Arson and Explosives Enforcement Branch issued a
policy directive requiring all field divisions to maintain a vehicle usage log for
the NRT response vehicles. We believe this requirement will assist ATF
headquarters when determining whether to replace, upgrade, or relocate the
existing vehicles.

Hazmat Trailers

      Between 2005 and 2006, the Arson and Explosives Programs Division
purchased eight hazmat trailers to be used by the NRT.21 These trailers
contain items such as protective equipment and respiratory aids for use at
hazmat scenes. According to the Arson and Explosives Enforcement Branch
Chief, the initial cost of the trailers totaled about $20,000, and the
equipment to outfit all the trailers cost nearly $515,000.

      Based upon our examination of ATF documentation, we determined
that 3 (or 5 percent) of the 63 NRT activations between FYs 2007 through
2009 involved a hazmat scene. According to an Arson and Explosives
Enforcement Branch official, the NRT used a hazmat trailer in one of those
three activations. Several full-time members confirmed that hazmat trailers
were rarely used. They stated that at least three of the eight hazmat trailers
had not been used since their purchase.

      We believe ATF should evaluate the usage of the hazmat trailers to
assist it with any future decision-making regarding the trailers and
equipment.




       20
            One field manager stated that his field division did not have an NRT response
vehicle.
       21
            Appendix IV contains a map showing the locations of the hazmat trailers.


                                            - 21 -
Program Oversight

      As mentioned earlier in the report, the NRT is part of ATF’s Arson and
Explosives Enforcement Branch within the Arson and Explosives Programs
Division. As illustrated in Exhibit 2-3, the Arson and Explosives Enforcement
Branch is responsible for overseeing four programs: (1) the NRT Program,
(2) the Certified Fire Investigator Program, (3) the Certified Explosives
Specialist Program, and (4) the Criminal Profilers Program.

                            EXHIBIT 2-3

               CURRENT ORGANIZATIONAL CHART OF THE 

              ARSON AND EXPLOSIVES PROGRAMS DIVISION





Source: ATF

      In April 2010 ATF initiated an organizational restructuring and
transferred the Arson and Explosives Programs Division from the Office of
Enforcement Programs and Services to the Office of Field Operations.

      Prior to April 2010, several ATF officials commented to us about
weaknesses in communication between the NRT Program and the Office of
Field Operations. Before the organizational change, on-scene
communication from the NRT about its operations, procedures, and
methodology generally traveled through the chain of command in the Office
of Enforcement Programs and Services. However, this information was not
always provided to the Office of Field Operations. Given that field divisions


                                    - 22 -
are responsible for the investigations related to the scene with which the
NRT is assisting, it is important for the Office of Field Operations to be aware
of the NRT’s plans for assisting in the investigation.

      During our review, ATF officials acknowledged the communication
breakdown during NRT deployments and reorganized its headquarters
structure, moving the NRT Program under the Office of Field Operations.
ATF headquarters officials believe that this restructuring will resolve the
communication issues that we identified.

Program Changes

       In FY 2009 ATF headquarters restructured the NRT regions, eliminating
the Northeast region from the structure of the NRT. An Arson and
Explosives Programs Division official stated that the NRT was restructured
into three regions to align with the Office of Field Operations’ regional
structure. The Chief of the Arson and Explosives Enforcement Branch
further explained that the Northeast region was eliminated because that
region responded to the fewest number of NRT activations, as noted in our
analysis in Exhibit 1-3.

       NRT members told us that they were surprised by the announcement
of this change because they had no previous knowledge of management’s
intentions. According to an NRT member, the elimination of the region
affected the NRT’s operations because the NRT had to operate at the same
level with fewer resources. Specifically, there was a reduction in the number
of team leaders from four to three, and we were told that some part-time
members in the Northeast region left the NRT.

       The Arson and Explosives Programs Division management also recently
changed the policy for individuals who fill the Team Special Agent in Charge
position during an NRT activation. Prior to July 2010, the position was filled
by an NRT member who held the position of Assistant Special Agent in
Charge in a field division. As a result of the policy change, the position is
now filled by an Assistant Special Agent in Charge from the field division
requesting NRT assistance, and the individual is not required to be an NRT
member. According to the Chief of the Arson and Explosives Enforcement
Branch, many teams were activated without a Team Special Agent in Charge
because it was difficult to find an available NRT member to fill the position.
In his opinion, filling the NRT Team Special Agent in Charge position with an
Assistant Special Agent in Charge from the requesting field division will
eliminate this staffing problem.




                                     - 23 -
       We solicited input from 25 field division managers regarding this policy
change and found that 21 agreed with and 1 was indifferent to the change in
the Team Special Agent in Charge position. These field managers explained
that local non-NRT Assistant Special Agents in Charge already have a
relationship with the state and local agencies responding to the scene and
are better suited to continue the investigation once the NRT completes its
work. The remaining three field managers disagreed with the policy change,
believing the new requirement might leave their division shorthanded if one
of their Assistant Special Agents in Charge was assisting the NRT and the
other was unavailable due to leave or a detailed assignment.

      Many NRT members, including former Team Special Agents in Charge,
were concerned that a local non-NRT Assistant Special Agent in Charge may
not have sufficient experience with arson and explosives incidents or
knowledge of NRT operations to coordinate such events. Prior to the policy
change, NRT guidelines required Team Special Agents in Charge to have
attended advanced arson and explosives training; initiated, investigated, and
conducted arson or explosives cases under ATF’s jurisdiction; and at least
2 years of arson and explosives investigative experience.

      We concluded that ATF officials offered a reasonable rationale for the
recent organization changes. However, we believe that ATF should address
the concerns of NRT members and ensure that the local non-NRT Assistant
Special Agents in Charge have sufficient knowledge of NRT operations to
coordinate arson and explosives operations where the NRT is responding.

Turnover in Management Positions

      There has been a high rate of turnover among ATF headquarters
management positions associated with the NRT Program. According to an
Arson and Explosives Programs Division official, management positions at
ATF headquarters are filled by field personnel who rotate into headquarters
every 2 to 3 years. These individuals generally remain in these positions for
short periods of time, and these positions also remain vacant for extended
intervals. A 2007 ATF Inspection Report cited that the Arson and Explosives
Enforcement Branch Chief position had been vacant for 2 years and that, at
the time, the Arson and Explosives Programs Division Deputy Chief and NRT
Program Manager positions were also vacant.

       According to NRT headquarters staff, seven different individuals have
held the Arson and Explosives Enforcement Branch Chief or Acting Chief
position from 2001 to 2010. The NRT Program Manager informed us that
there have been 15 NRT Program Managers within the past 20 years.
Moreover, several full-time NRT members stated that there is no continuity


                                    - 24 -
of management at headquarters and likened the situation to a “revolving
door.” One full-time NRT member further said that there typically has not
been a transition period where the individual who is leaving trains the
incoming manager about the NRT.

      We recognize that turnover is inherent with management positions in
headquarters operations. However, frequent management–level changes
and a lag in filling such positions contribute to a lack of continuity in
overseeing the NRT Program.

Inability to Provide Basic Program Information

       During this audit, in September 2009 we requested a listing of all ATF
employees who participated on the NRT. The Arson and Explosives
Enforcement Branch provided a roster of the current NRT members as of
September 28, 2009. However, when we requested a list of NRT members
for FYs 2007 through 2009, the Arson and Explosives Enforcement Branch
could not readily provide a list of members for this period. According to an
Arson and Explosives Enforcement Branch official, providing a list of
historical information would be a labor-intensive process and require extra
manpower to review team leader reports for the necessary information. We
believe maintaining information on NRT members could assist supervisors
with managing the program. For example, team leaders could use the
information as a resource in the event that previous NRT members must be
called upon because there is difficulty in assembling a full team for an NRT
activation.

       In October 2009 we requested a summary of all NRT activations for
FYs 2007 through 2009 from the Arson and Explosives Enforcement Branch.
This information also was not readily available. In December 2009 we
received the listing we had requested of all activations that occurred during
our review period. According to an ATF program analyst, the provided
information was generated from a tracking mechanism used solely by the
Arson and Explosives Enforcement Branch, which requires a manual
consolidation of data from multiple sources and was not reconciled to the
information contained in N-FORCE. Moreover, this analyst’s comparison of
pre-FY 2007 information reflected in the Arson and Explosives Enforcement
Branch’s report to N-FORCE data revealed 464 instances where N-FORCE
failed to identify investigations using the NRT.

     In our opinion, basic information on NRT Program activity should be
maintained and readily available to those responsible for overseeing the
program. ATF uses information contained in N-FORCE to report statistics to
ATF executive management, the Attorney General, and Congress. ATF


                                    - 25 -
executive managers told us they were concerned that the Arson and
Explosives Enforcement Branch was not using N-FORCE to manage its NRT
operational information and was instead maintaining a separate, stand alone
system on NRT operations. Although these managers acknowledged that
N-FORCE was a somewhat antiquated system, they questioned why the
Arson and Explosives Enforcement Branch was utilizing another mechanism
for collecting statistics and stated that the organization should be using
N-FORCE. Because ATF uses data from N-FORCE to report information to its
executive management, the Attorney General, and Congress, we believe it is
important for officials to ensure that the information pertaining to NRT
activations is accurate in the system.

Limited Management Involvement

        The full-time NRT members we interviewed commented that they had
little contact with NRT Program management. The limited interaction was
caused in part by the physical distance between management staff, who are
stationed at ATF headquarters, and the NRT members, who are located
within field divisions across the country.

      The full-time members also told us that NRT management rarely
observed the NRT while deployed. This practice would allow them to witness
the work performed by NRT personnel when on the scene, interact with the
NRT members, and obtain face-to-face feedback from NRT members, as well
as state and local agency personnel regarding the performance of the NRT,
the effect NRT involvement had on an investigation, and potential changes
to improve the program.

        NRT Program management must complete performance evaluations for
all full-time NRT members. Yet, a full-time NRT member stated that
headquarters management conducted their performance evaluations without
interacting with the NRT members, while another full-time member said his
performance appraisal was solely based on comments received from the NRT
team leaders.

       The Chief of the Arson and Explosives Enforcement Branch
acknowledged that it has been difficult to manage the full-time members
who are stationed throughout the country. To address this issue, in
April 2010 ATF changed the NRT team leader position description to make
the position supervisory in nature. As a result, the NRT team leaders are
responsible for directly supervising the full-time members. We believe that
this change will help ensure that the full-time members have first-line
supervisors who have regular interaction with them.



                                   - 26 -
Low NRT Member Morale

       During our interviews with NRT members, many discussed the
previously mentioned management issues and stated that those matters
caused low morale among the team members and negatively affected their
confidence in NRT management. These management issues caused some
members to remove themselves from the NRT, while other NRT members
told us that they will consider leaving the NRT if the current conditions
persist. We believe the departure of additional members could adversely
affect the NRT’s operations by making it more difficult for team leaders to
field a complete team when the NRT is activated.

       We met with ATF executive managers and informed them that a
majority of the NRT team members we interviewed indicated they had low
morale and a lack of confidence in headquarters management. ATF officials
told us that they were aware of the issues and explained that, partly to
address this issue, in April 2010 ATF moved the Arson and Explosives
Programs Division to the Office of Field Operations and added 10 additional
full-time member positions. They believe that these changes will improve
morale and overall program management. In our opinion, promoting open
communication and interaction among NRT management and members can
improve the morale of the NRT members, as well as help ensure the
continued effectiveness of the NRT.

Conclusion

       Our evaluation of ATF’s management of the NRT Program revealed
several weaknesses. Although regulations associated with NRT equipment
require regular inspections of response vehicles and hazmat trailers, ATF
was not performing these inspections. In addition, at the time of fieldwork,
ATF did not require staff to maintain usage logs for the NRT response
vehicles and hazmat trailers. We believe ATF should regularly inspect the
response vehicles and trailers and monitor their use to aid in determining
the utility of NRT equipment and future decisions regarding the number and
placement of this equipment. We also believe that ATF should complete its
efforts to update the NRT Handbook, which ATF officials have identified as
outdated.

      We identified other issues associated with the oversight of the NRT
Program. For example, several ATF officials commented about weaknesses
in communication caused, in part, by a disconnected reporting structure
between two headquarters entities. In April 2010 ATF executive
management initiated an organizational restructuring that included
transferring the NRT Program to the Office of Field Operations.



                                   - 27 -
       We also found that there was frequent turnover in NRT management
positions, and this resulted in a lack of program continuity. Additionally, the
NRT was unable to readily provide basic program information such as data
on NRT activations.

      Several NRT members we interviewed discussed NRT
management-related issues, including a lack of interaction with NRT
managers in headquarters. Some NRT members explained that these
matters caused low morale among the team members and negatively
affected their confidence in NRT management. ATF executive management
informed us that they were aware of the low morale and waning confidence
in NRT management and stated that they believed the recent organizational
changes will help address these concerns.

Recommendations

We recommend that ATF:

      6.	    Examine and update existing NRT policies and procedures,
             including the handbook, and ensure all NRT members and field
             management are aware of and follow the policies.

      7.	    Regularly monitor the usage of the response vehicles and
             hazmat trailers and ensure that required regular inspections of
             the response vehicles and hazmat trailers are completed and
             documented.

      8.	    Ensure that local non-NRT Assistant Special Agents in Charge
             have sufficient knowledge of NRT operations to coordinate arson
             and explosives operations when called on to fill the position of an
             NRT Team Special Agent in Charge.

      9.	    Improve oversight and administration of the NRT Program,
             including developing a plan for management transitions and
             maintaining accurate program data, such as data on activations
             and program participants.

      10.	   Implement a structure, such as regular site visits by
             management and teleconferences or video conferences between
             management and staff, to improve communication and
             interaction between NRT management and members.




                                     - 28 -
               STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the ATF NRT Program’s internal
controls was not made for the purpose of providing assurance on its internal
control structure as a whole. ATF’s management is responsible for the
establishment and maintenance of internal controls.

       As noted in the Findings and Recommendations section of this report,
we identified deficiencies in ATF’s internal controls that are significant within
the context of the audit objectives and based upon the audit work performed
that we believe adversely affect ATF’s ability to properly manage the NRT.
Frequent turnover in management positions has contributed to a lack of
consistent oversight and the maintaining of basic program information.
Further, management was not ensuring that certain policies and regulations
were being followed. Overall, the NRT Program may not be operating as
efficiently and effectively as it could and some weaknesses have the
potential to jeopardize the welfare of NRT members and others. These
matters are discussed in detail in the body of this report.

       Because we are not expressing an opinion on ATF’s internal control
structure as a whole, this statement is intended solely for the information
and use of ATF. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                     - 29 -
                   STATEMENT ON COMPLIANCE

                  WITH LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected records,
procedures, and practices, to obtain reasonable assurance that ATF’s
management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. ATF’s management is responsible for ensuring compliance with
federal laws and regulations applicable to ATF. In planning our audit, we
identified the following laws and regulations that concerned the operations of
the auditee and that were significant within the context of the audit
objectives:

        18 U.S.C.A. § 1961 (2010).

        18 U.S.C.A. § 928 (2010).

        29 C.F.R. § 1910.134(h)(3) (2010).

      Our audit included examining, on a test basis, ATF’s compliance with
the aforementioned laws and regulations that could have a material effect on
ATF’s operations, through obtaining and examining arson and explosives
case data, interviewing ATF personnel, observing an NRT activation, and
surveying state and local agency representatives who requested the NRT’s
assistance. As noted in the Findings and Recommendations section of this
report, we found that ATF did not comply with OSHA regulations
in 29 C.F.R. § 1910.134(h)(3). OSHA regulations require hazmat equipment
to be inspected monthly and that the inspections be documented, including
the inspection date and signature of the individual performing the inspection.
We found that the NRT did not have a formal checklist to ensure complete
and consistent inspections were performed, and that the inspections were
documented. These matters are discussed in detail in the body of this
report.




                                      - 30 -
                                                                  APPENDIX I 



             OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to: (1) examine ATF’s use of the
NRT, including its effectiveness; and (2) examine the management of the
NRT Program.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       To accomplish our audit objectives, we examined arson and explosives
case data between FYs 2007 and 2009 from ATF’s official case management
system, N-FORCE, and reviewed ATF documentation, including NRT policies
and procedures as articulated in its handbook. We also interviewed officials
within several ATF headquarters’ offices, including the Assistant Directors of
the Office of Field Operations and Office of Enforcement Programs and
Services and the Chief of the Arson and Explosives Enforcement Branch, and
executive management, including the acting ATF Director and Executive
Assistant Director. We also interviewed field division personnel and NRT
members while conducting fieldwork in Chicago, Illinois; Dallas, Texas;
Houston, Texas; Jacksonville, Florida; Louisville, Kentucky; and Philadelphia,
Pennsylvania; as well as conducted telephone interviews with field
management at all 25 ATF field divisions. In total, we interviewed 73 ATF
officials. Moreover, we spoke to representatives from 49 state and local
agencies that had requested the NRT’s assistance between FYs 2007 and
2009.

      To assist in accomplishing our audit objectives, we examined data
provided by ATF. Specifically, for FYs 2007 through 2009 we performed
analyses of ATF arson and explosives cases to determine the number of
cases where field divisions could have requested the NRT’s assistance, as
well as the number of times field divisions utilized the NRT. In total, this
data amounted to 10,056 records.

      The N-FORCE data contained arson and explosives cases with several
types of determinations. According to a senior ATF headquarters official,


                                     - 31 -
only three of the determinations (accidental, incendiary, or undetermined)
would encompass incidents where the NRT’s assistance would be requested.
Therefore, we focused our analysis on cases with these types of
determinations. We then examined the data to identify those cases meeting
Priority 1 criteria as articulated in the NRT Handbook. Specifically, we
queried the data to identify those cases that involved estimated damages of
$1 million or more, at least 1 death, or more than 10 injuries. The results of
this analysis provided us with the number of arson and explosives cases for
which ATF field divisions could have requested the NRT’s assistance. Within
the data file, we also identified those cases on which the NRT was utilized.
We did not perform an independent, overall assessment of the reliability of
the data contained in N-FORCE because we used the data for informational
and contextual purposes to support our overall conclusions. The data did
not provide the sole basis of our findings.

Prior Reviews

       No recent reports by the DOJ Office of the Inspector General (OIG) or
the Government Accountability Office have examined ATF’s NRT. The ATF
Inspection Division conducted a review of the Arson and Explosives
Programs Division, which includes the NRT Program, in 2007. According to
this review, the ATF Inspection Division found that the Arson and Explosives
Programs Division lacked adequate funds for mandatory training and
equipment.




                                    - 32 -
                                                       APPENDIX II


                  CURRENT MAP OF ATF FIELD DIVISIONS




               




Source: ATF




                                - 33 -
                                                   APPENDIX III


              LOCATIONS OF NRT RESPONSE VEHICLES




Source: ATF



                            - 34 -
                                                   APPENDIX IV 




              LOCATIONS OF NRT HAZMAT TRAILERS 





Source: ATF




                            - 35 -
                                                                                     APPENDI
                                                                                           IX V


      TH
       HE BURE
             EAU OF ALCOHO
                         OL, TOB
                               BACCO, FIREAR
                                           RMS AND
                                                 D
                  EX
                   XPLOSIV
                         VES’ RESPONSE
                                     E



                                                     U.S. Department of Justice

                                                     Bureauu of Alcoholl, Tobacco,
                                                     Firearm
                                                           ms and Explosives
                                                     Office of the Direcctor

                                                     Washinggton, DC 20226
                                                     www.atf.gov
                                                            f

                                         Novem
                                             mber 17, 2010




Mr. Raym mond J. Beaaudet
Assistantt Inspector General for Audit
United States Departtment of Justtice
Office off the Inspecto
                      or General
1425 New w York Aveenue, NW
Suite 50000
Washinggton, DC 205   530

Dear Mr.. Beaudet:

Thank yoou for allowiing the Bureeau of Alcohhol, Tobacco, Firearms annd Explosivves (ATF) thee
opportunnity to review
                     w and comm  ment on the foormal draft audit report entitled “Auudit of ATF’ss
National Response Team (NRT)..” ATF apprreciates not only the possitive findinggs of this auddit,
but also the opportunnity to identify areas in which this viital program may be streengthened. The
followingg responses to the OIG recommendaations are proovided:

Recomm mendation 1: Analyze arson and expplosives casee data on a regular basis to examine field
division use of the NRT to help ensure field divisions aree using the NRT to its fuull potential.
Follow-uup on instancces of signifiicant use or non-use to recognize anyy best practiices that couuld be
shared thhroughout ATTF or identiffy field divissions that coould benefit from management
reinforceement of the availability of NRT assiistance.

ATF’s Response: While ATF agrees that annalyses of NRT usage byy field divisiions would be
beneficiaal for statisticcal and perfoormance maanagement puurposes, it does
                                                                        d    not conccur that suchh
                                                - 36 -
analyses would result in practices that would significantly impact NRT usage. All arson and
explosives cases are currently evaluated for NRT potential. At the onset of an investigation, the
field division considers the factors with potential to affect the investigation, including the
complexity of the incident and the capability of the field division and or State and local resources
to manage the incident. Regardless of the delineated criteria for a response, when local
(including ATF) resources are sufficient, the investigation is handled at that level. ATF believes
that this ensures that resources for NRT operations are used in the most productive and efficient
manner possible. ATF is in the process of re-writing the NRT Handbook. The 10-year-old
handbook specifies the criteria for a response. A panel will soon be convening to discuss the
direction of the NRT, and will evaluate the criteria for responses to determine if they are still
valid or even necessary. ATF plans to send the NRT Handbook for coordination this fiscal year.

Recommendation 2: Modify N-Force to require the population of the fields used to identify
arson and explosives investigations according to NRT priority status.

ATF’s Response: ATF does not concur with this recommendation because both the criteria for
NRT activation and the current N-Force system are targeted for restructuring. As stated in the
response to Recommendation 1, above, the need for an NRT activation is evaluated at the onset
of the investigation, and the criteria currently defined in the NRT Handbook is outdated. It is
unlikely that the current structure (Priority 1, 2, or 3) will be retained. Furthermore,
modifications to N-Force are not highly feasible at this time. In recognition of the limitations of
its existing case management system(s), collectively referred to as the National Field Office Case
Information System (NFOCIS), and with the objective of providing better information
integration throughout its regulatory and law enforcement missions, ATF in early September
2010, awarded a contract to begin business process reengineering (BPR) of its case management
and related business processes. This BPR effort will examine the flow of information throughout
ATF. The BPR effort will run for approximately 15 to 18 months, with completion expected
during mid FY 2012. The BPR will produce a set of reengineered business processes and
requirements for ATF’s next-generation case management system. A new case management
solution has not been identified at this time, nor has a funding stream been identified. ATF does
not contemplate identifying, acquiring, and implementing an automated solution in order to
resolve this recommendation before FY 2014.

Recommendation 3: Enhance outreach efforts to State and local agencies to increase awareness
of the NRT and its capabilities.

ATF’s Response: ATF concurs with this recommendation. ATF will increase awareness of the
NRT and its capabilities through several avenues.

   	 ATF will insert a brief informational segment on the NRT in every arson or explosives
      training class it provides to State and local agencies.

   	 ATF will publish an advisory on the U.S. Bomb Data Center’s Bomb and Arson Tracking
      System (BATS) website. All State and local agencies that contribute to BATS will then
      have ongoing access to information on the NRT.

                                              - 37 -
   	 The Arson and Explosives Programs Division (AEPD) is currently updating an
      information pamphlet on the NRT. When published, this pamphlet will be distributed to
      the field divisions, which may then distribute them to State and local partners in the area.
      These pamphlets will also be distributed at conferences, professional association
      meetings, etc. Furthermore, team supervisors will have the pamphlets to distribute in the
      field throughout the course of their daily activities.

Recommendation 4: Establish metrics by which to measure the effectiveness of the NRT.

ATF’s Response: ATF concurs with this recommendation. ATF will examine its processes,
and based on this report and internal analysis, identify areas that need improvement and create
metrics to track progress.

Recommendation 5: Place a greater emphasis on the State and local agency satisfaction
surveys, establish a process for following up with non-respondents, and share with NRT
members the feedback received through the surveys.

ATF’s Response: ATF concurs with this recommendation and has already begun to take action.
ATF has long recognized the low response rate attained through the distribution of paper copies
of the NRT surveys. Even though letters and follow-up requests were sent, agencies have not
been reliable in responding. To remedy this, ATF purchased an electronic survey tool from the
Vovici Corporation. At the end of FY 2010, AEPD fielded the first surveys electronically.
Although the distribution process may need small refinements, ATF has created a plan for
sending the surveys and following up with non-respondents after 30 days. Additional procedures
have been identified to increase the response rate. Team supervisors will be required to obtain
an e-mail address and inform the department/agency contact at the onset of the NRT response
that ATF will be sending the survey shortly after the completion of the activation. Team
supervisors will be required to follow-up with a reminder phone call to coincide with the 30-day
reminder e-mail. Beginning immediately, AEPD will share the survey results with NRT
members each quarter.

Recommendation 6: Examine and update existing NRT policies and procedures, including the
handbook, and ensure all NRT members and field management are aware of and follow the
policies.

ATF’s Response: ATF concurs with this recommendation and has begun to take corrective
action. AEPD is currently revising the NRT Handbook, which will update and/or incorporate all
previous NRT policies. The NRT Handbook will be ready for coordination this fiscal year. As
part of the coordination process prior to publication, all Special Agents in Charge (SACs) and
NRT members will review, and have an opportunity to comment on, the NRT Handbook. The
AEPD was recently moved to the Office of Field Operations. Because of this restructuring,
AEPD and field supervisors both report to the same “chain of command.” This eliminates any
potential problems with ensuring that field managers adhere to policies.


                                             - 38 -
Recommendation 7: Regularly monitor the usage of the response vehicles and HAZMAT
trailers and ensure that required regular inspections of the response vehicles and HAZMAT
trailers are completed and documented.

ATF’s Response: ATF concurs with this recommendation. An inspection process will be
included in the revised NRT Handbook. NRT Supervisors will be responsible for ensuring
inspections are routinely conducted, and inspection procedures will also ensure the trucks are
replenished after the conclusion of a response. Additionally, a process will be identified for
inspecting the HAZMAT trailers. To make this process more efficient, several trailers may be
moved to locations where there are full-time members. Specific members will be designated to
perform the monthly inspections.

Recommendation 8: Ensure that local non-NRT Assistant Special Agents in Charge (ASACs)
have sufficient knowledge of NRT operations to coordinate arson and explosives operations
when called on to fill the position of an NRT Team Special Agent in Charge.

ATF’s Response: ATF concurs with this recommendation. ATF will ensure ASACs are well
versed on NRT operations. However, it is important to note that ASACs at NRT activations are
not in charge of the NRT, but of the progress of the local investigation (e.g., interagency
coordination, approval of various procedures and actions, and processing interviews and leads).
The team supervisor and the AEPD manage the NRT’s activities on the scene. Currently, all GS-
15’s (which would include ASACs) receive a block of instruction on NRT operations at the
Command and Control School. ATF will ensure that the ASAC’s role at NRT activations is
stressed. Additionally, ATF will allow any interested ASACs to attend an NRT recertification.
This will give the ASAC more specific exposure to NRT operations, policies, and issues.

Recommendation 9: Improve oversight and administration of the NRT Program, including
developing a plan for management transitions and maintaining accurate program data, such as
data on activations and program participants.

ATF’s Response: ATF concurs with this recommendation and is currently taking action in both
areas. ATF is currently realigning its arson and explosives functions, consolidating programs
and training along business lines, all under a single Deputy Assistant Director in the Office of
Field Operations. This will greatly improve oversight and administration of the NRT Program,
improve communication across functional areas, and ensure smooth management transitions. In
terms of data maintenance, over the past 2 years, AEPD has developed and improved a computer
process by which to quickly collect, extrapolate, and disseminate information on NRT personnel,
activations, and other pertinent data. While this process was still under development at the onset
of the OIG’s audit, it has since been finalized and is working quite well. We believe this process
sufficiently meets the need for information on program data.

Recommendation 10: Implement a structure, such as regular site visits by management and
teleconferences or video conferences between management and staff, to improve communication
and interaction between NRT management and members.

                                             - 39 -
ATF’s Response: ATF concurs with this recommendation. ATF recognizes that there have
been challenges in this area, most of which are expected to be corrected with the realignment and
consolidation of arson and explosives programs and training. Any residual shortfall in
communication is expected to improve now that the shift has been made from team “leaders” to
team “supervisors.” With this change, team members interact very closely with their immediate
supervisors, who not only oversee their actions in the field but who are also in close contact with
them in terms of their appraisals, personnel actions, etc. Team supervisors will be required to
participate fully as part of the AEPD management team and to conduct weekly conference calls
with their employees.

Should you have any questions regarding this response, please contact Melanie Stinnett,
Assistant Director, Office of Professional Responsibility and Security Operations at (202)
648-7500.

                                         Sincerely yours, 





                                         Kenneth Melson 

                                         Deputy Director





                                             - 40 -
                                                               APPENDIX VI 



               OFFICE OF THE INSPECTOR GENERAL
              ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO RESOLVE THE REPORT

The OIG provided a draft of this audit report to ATF. ATF’s response is
incorporated in Appendix V of this final report. The following provides the
OIG analysis of the response and summary of actions necessary to resolve
the report.

Recommendation Number:

1.	   Resolved. ATF concurred with our recommendation to analyze arson
      and explosives case data on a regular basis to examine field division
      use of the NRT. ATF said that performing such an analysis would be
      beneficial for statistical and performance management purposes. ATF
      also stated that it is in the process of rewriting the NRT Handbook,
      which specifies the criteria for using the NRT, and that a panel will
      meet to discuss the direction of the NRT. ATF stated that the panel
      will also evaluate the existing criteria for NRT responses to determine
      if the criteria are valid or necessary.

      While ATF’s response stated that it would conduct the analysis we
      recommended, ATF also stated that it did not believe that the
      suggested analyses would have a significant impact on NRT usage
      among field divisions. ATF stated that all arson and explosives cases
      are currently evaluated for the potential use of the NRT. However, our
      audit concluded that the analyses ATF currently conducts can be
      improved. Our analysis of ATF arson and explosives case data for FYs
      2007 through 2009 revealed that ATF field divisions only requested
      NRT assistance on 63 of 631 cases that met the criteria for the NRT’s
      assistance. In addition, 9 of ATF’s 25 field divisions did not use the
      NRT at all, while an additional 3 field divisions only used the team once
      during those 3 years. The audit also found that ATF does not routinely
      identify the number of times field divisions use the NRT compared to
      the number of cases on which the NRT’s assistance could have been
      requested. This type of analysis could be used to help ATF
      management assess the use of the NRT among field divisions and
      ensure that the NRT is used to its fullest potential. Moreover, during
      the audit’s exit conference, ATF executive management stated that
      they believed there was a need to follow up with certain field divisions
      for the lack of NRT use on arson and explosives investigations.


                                    - 41 -
      We believe that the exit conference remarks and ATF’s assertion that
      analyzing field divisions’ use of the NRT would be beneficial for
      statistical and performance management meets the spirit and intention
      of our recommendation. Therefore, we consider this recommendation
      to be resolved.

      This recommendation can be closed when we receive a copy of the
      updated NRT Handbook, including the new criteria to consider when
      using the NRT, and evidence that ATF is analyzing arson and
      explosives case data on a regular basis to examine field division use of
      the NRT. In addition, please provide evidence that ATF has developed
      an adequate system for following up on instances of significant use or
      non-use of the NRT by field divisions.

2.	   Unresolved. ATF did not concur with our recommendation to modify
      N-FORCE to require the population of the fields used to identify arson
      and explosives investigations according to NRT priority status because
      the criteria for activating the NRT and the current N-FORCE system are
      targeted for restructuring. ATF explained that the NRT Handbook,
      including the criteria for requesting the NRT and the definition of
      Priority 1, 2, and 3 investigations, is being evaluated and is unlikely to
      be retained. Additionally, ATF stated that modifications to N-FORCE
      are not currently feasible because ATF’s case management system and
      related business processes are undergoing reengineering. ATF said
      that it does not contemplate identifying, acquiring, and implementing
      an automated solution to resolve this recommendation before FY 2014.

      We understand that the criteria for using the NRT are likely to change
      and that it will take time to develop and implement a new case
      management system. However, according to the ATF’s response to
      our first recommendation, the ATF is in agreement that analyzing the
      field divisions’ use of the NRT would be beneficial for statistical and
      performance management purposes. As a result, we believe that it is
      essential for ATF to develop a system that provides a bureau-wide
      view of all arson and explosives cases eligible for requesting NRT
      assistance. Therefore, this recommendation can be resolved when ATF
      agrees to develop a tracking mechanism that identifies all arson and
      explosives investigations eligible for NRT use that are in line with the
      restructured criteria.

3.	   Resolved. ATF concurred with our recommendation to enhance its
      outreach efforts to state and local agencies to increase awareness of
      the NRT and its capabilities. ATF stated that it will increase the
                                    - 42 -
      awareness of the NRT by: (1) inserting a brief informational segment
      on the NRT in every arson and explosives training class provided to
      state and local agencies; (2) publishing an advisory on the U.S. Bomb
      Data Center’s Bomb and Arson Tracking System website, which will
      provide NRT information to all state and local agencies using this
      system; and (3) updating and distributing an information pamphlet on
      the NRT that will be distributed to ATF field divisions and to agencies
      attending conferences and professional association meetings. ATF
      further stated that the information pamphlet may then be distributed
      by ATF field divisions to state and local agencies. However, we believe
      that ATF field divisions should actively distribute this information to
      their state and local counterparts to enhance NRT-related outreach
      efforts.

      This recommendation can be closed when we receive evidence that
      ATF has appropriately enhanced its outreach to state and local
      agencies to increase awareness of the NRT and its capabilities.

4.	   Resolved. ATF concurred with our recommendation to establish
      metrics to measure the effectiveness of the NRT. ATF stated that it
      plans to examine its processes, identify areas needing improvement,
      and then create metrics to track the effectiveness of the NRT.

      This recommendation can be closed when we receive evidence that
      ATF has established adequate performance metrics for measuring the
      NRT’s effectiveness and that ATF is evaluating the NRT’s effectiveness
      through the use of those metrics.

5.	   Resolved. ATF concurred with our recommendation to place greater
      emphasis on the state and local agency satisfaction surveys, establish
      a process for following up with non-respondents, and share with NRT
      members the feedback received through the surveys. ATF stated that
      it purchased an electronic survey tool that includes a mechanism to
      follow up with non-respondents via e-mail after 30 days. ATF also
      stated that NRT team supervisors will be required to follow up with
      non-respondents via telephone, which will coincide with the 30-day
      reminder e-mail. ATF further stated that, effective immediately, the
      Arson and Explosives Programs Division will share the survey results
      with NRT members each quarter.

      This recommendation can be closed when we receive evidence of ATF’s
      efforts to improve the response rate to the state and local agency
      satisfaction surveys, including efforts to follow up with non-
                                   - 43 -
      respondents. In addition, please provide evidence that the Arson and
      Explosives Programs Division is sharing the survey results with NRT
      members on a quarterly basis.

6.	   Resolved. ATF concurred with our recommendation to examine and
      update existing NRT policies and procedures, including the NRT
      Handbook and ensure all NRT members and field management are
      aware of and follow the updated policies. ATF stated that the Arson
      and Explosives Programs Division is currently revising the NRT
      Handbook, which will be ready for coordination this fiscal year. ATF
      further stated that all Special Agents in Charge and NRT members will
      review and be given the opportunity to comment on the updated NRT
      Handbook prior to its publication. In addition, ATF stated that the
      restructuring of the Arson and Explosives Programs Division to the
      Office of Field Operations will improve field division compliance with
      NRT policies because the Arson and Explosives Programs Division and
      field managers are both under the oversight of the Office of Field
      Operations.

      This recommendation can be closed when we receive the revised NRT
      Handbook and evidence that all NRT members and field managers are
      aware that the updated NRT policies must be followed.

7.	   Resolved. ATF concurred with our recommendation to regularly
      monitor the usage of the response vehicles and hazmat trailers and
      ensure that required regular inspections of the response vehicles and
      hazmat trailers are completed and documented. ATF stated that
      processes for inspecting the response vehicles and hazmat trailers will
      be included in the revised NRT Handbook. ATF further stated that NRT
      team supervisors will be responsible for ensuring inspections are
      routinely conducted, which will include ensuring the response vehicles
      are replenished after the conclusion of a response. ATF also stated
      that specific NRT members will be designated to perform the monthly
      inspections of the hazmat trailers and that the trailers may be moved
      to locations to make the inspection process more efficient. ATF did not
      specifically comment on its plans to monitor the usage of its response
      vehicles and hazmat trailers.

      This recommendation can be closed when we receive evidence of the
      ATF’s efforts to monitor the usage of its response vehicles and hazmat
      trailers, as well as evidence that inspection processes and procedures
      for the response vehicles and hazmat trailers are reflected in the new

                                   - 44 -
      NRT Handbook and that the required regular inspections are being
      conducted and documented.

8.	   Resolved. ATF concurred with our recommendation to ensure that
      local non-NRT Assistant Special Agents in Charge have sufficient
      knowledge of NRT operations to coordinate arson and explosives
      operations when called on to fill the position of an NRT Team Special
      Agent in Charge. ATF stated that it will ensure Assistant Special
      Agents in Charge are well versed in NRT operations and commented
      that all Assistant Special Agents in Charge receive a block of
      instruction on NRT operations at ATF’s Command and Control School
      and will ensure that the Assistant Special Agent in Charge’s role at
      NRT activations is stressed. In addition, ATF stated that it will allow
      any interested Assistant Special Agents in Charge to attend NRT team
      member training, which will give those individuals more specific
      exposure to NRT operations, policies, and issues.

      This recommendation can be closed when we receive evidence that
      non-NRT Assistant Special Agents in Charge have sufficient knowledge
      of NRT operations, including documentation on the block of instruction
      provided at the Command and Control School and the local non-NRT
      Assistant Special Agents in Charge who attend the NRT recertification.

9.	   Resolved. ATF concurred with our recommendation to improve
      oversight and administration of the NRT Program, including developing
      a plan for management transitions and maintaining accurate program
      data. ATF stated that it is currently realigning its arson and explosives
      functions, as well as consolidating programs and training under a
      single Deputy Assistant Director in the Office of Field Operations. ATF
      stated that it believes these efforts will greatly improve the oversight
      and administration of the NRT Program, improve communication
      across functional areas, and ensure smooth management transitions.
      In addition, ATF stated that the Arson and Explosives Programs
      Division developed and improved a process to quickly collect,
      extrapolate, and disseminate information on NRT personnel,
      activations, and other pertinent data.

      This recommendation can be closed when we receive evidence of the
      ATF’s efforts to improve the oversight and administration of the NRT
      Program, including the realignment of functions, consolidation of
      programs, and a management transition plan. In addition, please
      provide evidence that the Arson and Explosives Programs Division’s
      computer process is finalized; contains accurate and complete program
                                    - 45 -
       data, including activations and program participants; and is consistent
       with the data maintained in N-Force.

10.	   Resolved. ATF concurred with our recommendation to implement a
       structure to improve communication and interaction between NRT
       management and members. ATF stated that it recognizes past
       challenges in this area but expects the realignment and consolidation
       of arson and explosives programs and training to resolve most of these
       difficulties. In addition, ATF stated that making the NRT team leader
       positions supervisory in nature will help improve communication
       between NRT management and members. Specifically, ATF stated
       that the NRT team supervisors will be required to participate fully as
       part of the Arson and Explosives Programs Division’s management
       team and conduct weekly conference calls with their employees.

       This recommendation can be closed when we receive evidence that the
       realignment and consolidation of arson and explosives programs and
       training, as well as the change from team leaders to team supervisors
       has improved communication and interaction between NRT
       management and members.




                                     - 46 -
